<html>
<title> - MODERNIZING THE BUSINESS OF ENVIRONMENTAL REGULATION AND PROTECTION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






  MODERNIZING THE BUSINESS OF ENVIRONMENTAL REGULATION AND PROTECTION

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 23, 2014

                               __________

                           Serial No. 113-164

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-557 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   107

                               Witnesses

Henry Darwin, Director, Arizona Department of Environmental 
  Quality........................................................     7
    Prepared statement...........................................     9
David Cash, Commissioner, Massachusetts Department of 
  Environmental Protection.......................................    14
    Prepared statement...........................................    17
Teresa Marks, Director, Arkansas Department of Environmental 
  Quality........................................................    24
    Prepared statement...........................................    26
William L. Kovacs, Senior Vice President, Environment, Technology 
  & Regulatory Affairs, U.S. Chamber of Commerce.................    30
    Prepared statement...........................................    32
Scott Slesinger, Legislative Director, National Resources Defense 
  Council........................................................    45
    Prepared statement...........................................    47
Matthew F. Wasson, Director of Programs, Appalachian Voices......    54
    Prepared statement...........................................    56

                           Submitted Material

Article of February 2012, ``Mortality Disparities in Appalachia: 
  Reassessment of Major Risk Factors,'' by Jonathan Borak, et 
  al., Journal of Occupational and Environmental Medicine, 
  submitted by Mr. McKinley......................................    84
Slide, Poverty Rate, Appalachian Regional Commission, March 2014, 
  submitted by Mr. Murphy........................................    97
Slide, Unemployment Rate, Appalachian Regional Commission, March 
  2014, submitted by Mr. Murphy..................................    98
Statement of July 23, 2014, ``E-Enterprise for the Environmental 
  Business Strategy,'' Environmental Protection Agency, submitted 
  by Mr. Shimkus.................................................   108

 
  MODERNIZING THE BUSINESS OF ENVIRONMENTAL REGULATION AND PROTECTION

                              ----------                              


                        WEDNESDAY, JULY 23, 2014

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Murphy, Latta, 
McKinley, Bilirakis, Johnson, Tonko, Green, McNerney, 
Schakowsky, Barrow, Matsui, and Waxman (ex officio).
    Also present: Representative Yarmuth.
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Deputy Communications Director; Leighton Brown, Press 
Assistant; Jerry Couri, Senior Environmental Policy Advisor; 
Brad Grantz, Policy Coordinator, Oversight and Investigations; 
David McCarthy, Chief Counsel, Environment and the Economy; 
Tina Richards, Counsel, Environment and the Economy; Chris 
Sarley, Policy Coordinator, Environment and the Economy; 
Jacqueline Cohen, Democratic Senior Counsel; Caitlin Haberman, 
Democratic Policy Analyst; and Ryan Schmit, Democratic EPA 
Detailee.
    Mr. Shimkus. I would like to call the hearing to order, and 
first, I want to ask unanimous consent that all members' 
opening statements can be submitted for the record. Without 
objection, so ordered. And I want to welcome the panel and I 
want to take a request, a personal request, to recognize one 
shadow and one intern. Alexa is from Taiwan. She has been 
interning in my office all summer. Wave, Alexa. And Reza is 
from Albania, Kosovo, and she just joined to shadow with me 
today. And I can't pronounce the name, her last name. But it is 
a town. What is it? Gjakova. So, welcome, and this is her first 
chance to be in Washington and see the legislative process. And 
we are glad to have her with us.
    I will now recognize myself for 5 minutes for an opening 
statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Every day we hear about innovations in system 
communications and logistics that make businesses more 
productive. Some of this modernization is technological and 
some is just common sense. Today, we explore these system 
innovations in the context of environmental regulation, 
modernizing environmental programs and making them more 
efficient.
    The States and EPA are partners in the business of working 
toward cleaner air, water, and soil because the States 
implement a significant percentage of the environmental laws, 
and EPA relies on the States for the implementation of its 
programs as Ranking Member Waxman will remind me almost every 
time we have a hearing. So I am learning. I have been 
listening, Mr. Waxman. In this age of declining budgets and 
workforce, States, EPA, the regulated community, and the public 
must work together to find ways to improve environmental 
protection while spending less resources.
    A great example of Congress working with the EPA and the 
regulated community to modernize and streamline the way an 
existing statute is carried out began with enactment of Public 
Law 112-195, the Hazardous Waste Electronic Manifest 
Establishment Act. Negotiations on this bill involved members 
from both parties, from several committees, and from House 
leadership, and from the Senate. Once a deal was reached, it 
passed the House and the Senate without a single dissenting 
vote. The President signed it into law on October 5, 2012. This 
Act authorizes EPA to employ a system that uses electronic 
manifests to track shipments of hazardous waste, under Resource 
Conservation and Recovery Act, known as RCRA, Subtitle C, from 
its generation to its ultimate disposal. This streamlines the 
current process, which requires paper forms and replaces the 
millions of paper manifests produced each year.
    Today, we will hear from the Commissioners of three States 
who will share their stories about how their States analyze 
their programs to determine how they can boost efficiency while 
maintaining and improving environmental protection. Arizona 
applies a management principle used in the private sector 
called Lean which is centered on preserving or creating value 
using fewer resources. The process improvements made in Arizona 
as a result of the Lean analysis has resulted in a decrease in 
the average permitting timeline by more than 60 percent and 
reduced the average time for a facility to return to the 
compliance by more than 50 percent. That means greater and 
faster protection of the environment and shortening the wait 
time for the regulated entity to use the permit to carry out 
their business strategy. Government and permit holders both 
win.
    Arkansas will give us examples of its modernization efforts 
including how State site inspections are now using electronic 
tablets to record inspection data and allow the regulated 
community to sign the forms at the time and the place of the 
inspection. The permit holder obtains the inspection form on 
the spot which means they will know immediately what they need 
to fix and will allow them to return to compliance much more 
quickly. Again, most everybody is a winner.
    Massachusetts will tell how it plans to use geographic 
information systems and mapping software to provide easy access 
to site cleanup documents to enable realtors and investors to 
more easily identify sites that are available for 
redevelopment. This facilitates real estate redevelopment. 
Economic growth and environmental cleanup are both improved.
    And finally, Bill Kovacs will give us the perspective of 
the regulated community. We expect Bill to discuss how these 
initiatives affect the bottom line of businesses across America 
and what further modernization steps could be taken. We welcome 
all our witnesses and look forward to their testimony.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Every day, we hear about innovations in system 
communications and logistics that make businesses more 
productive. Some of this modernization is technological and 
some is just common sense. Today, we explore these system 
innovations in the context of environmental regulation--
modernizing environmental programs and making them more 
efficient. The States and EPA are partners in the business of 
working toward cleaner air, water, and soil because the States 
implement a significant percentage of the environmental laws 
and EPA relies on the States for the implementation of its 
programs. In this age of declining budgets and workforce, 
States, EPA, the regulated community, and the public must work 
together to find ways to improve environmental protection while 
spending less resources.
    A great example of Congress working with EPA and the 
regulated community to modernize and streamline the way an 
existing statute is carried out began with enactment of Public 
Law 112-195, the Hazardous Waste Electronic Manifest 
Establishment Act. Negotiations on this bill involved members 
from both parties, from several committees, from the House 
Leadership, and from the Senate. Once a deal was reached, it 
passed the House and Senate without a single dissenting vote. 
The president signed it into law on October 5, 2012.
    This Act authorizes EPA to employ a system that uses 
electronic manifests to track shipments of hazardous waste, 
under Resource Conservation and Recovery Act (RCRA) Subtitle C, 
from its generation to ultimate disposal. This streamlines the 
current process, which requires paper forms, and replaces the 
millions of paper manifests produced each year.
    Today, we'll hear from the Commissioners of three States 
who will share their stories about how their States analyze 
their programs to determine how they can boost efficiency while 
maintainingor improving environmental protection. Arizona 
applies a management principle used in the private sector 
called ``Lean,'' which is centered on preserving or creating 
value using fewer resources.
    The process improvements made in Arizona as a result of the 
Lean analysis have resulted in a decrease in the average 
permitting timeline by more than 60 percent and reduced the 
average time for a facility to return to compliance by more 
than 50 percent. That means greater and faster protection of 
the environment and shortening the wait time for the regulated 
entity to use the permit to carry out their business strategy. 
Government and permit holders both win.
    Arkansas will give us examples of its modernization 
efforts, including how State site inspectors are now using 
electronic tablets to record inspection data and allow the 
regulated community to sign the forms at the time and place of 
the inspection. The permit holder obtains the inspection form 
on the spot which means they will know immediately what they 
need to fix and will allow them to return to compliance much 
more quickly. Again, most everybody is a winner.
    Massachusetts will tell how it plans to use geographic 
information systems and mapping software to provide easy access 
to site cleanup documents to enable realtors and investors to 
more easily identify sites that are available for 
redevelopment. This facilitates real estate redevelopment. 
Economic growth and environmental cleanup are both improved.
    And finally, Bill Kovacs will give us the perspective of 
the regulated community. We expect Bill to discuss how these 
initiatives affect the bottom line of businesses across America 
and what further modernization steps could be taken.
    We welcome all our witnesses and look forward to their 
testimony.

    Mr. Shimkus. I yield back the balance of my time and 
recognize the ranking member of the subcommittee, Mr. Tonko, 
for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and welcome to all of our 
panelists. Today's hearing gives us an opportunity to examine 
innovative new tools to enable State and Federal environmental 
regulators to accomplish their mission of environmental and 
public health protection more efficiently and more effectively. 
Smart metering, advanced data management and mapping tools and 
advanced monitoring devices can provide State and local 
governments with the means to deliver significant benefits to 
the public. We are all aware that budgets are tight and that 
there are many demands placed upon State and local governments. 
We have been asking States to do more with less for far too 
long. New tools can be helpful, but they come at a price. 
Without funding to procure these new tools and to train people 
to use them, we are simply imposing another mandate.
    We should incentivize and support agencies' use of 
innovative technologies to achieve greater environment and 
public health protection. I believe that the initial investment 
will pay for itself in a rather short period of time. For 
example, water leaking from mains represents significant loss 
of revenue and the loss of a resource that is growing scarce in 
some areas of our country. New monitoring technologies can 
identify leaks in water mains enabling municipalities to target 
maintenance and repairs of infrastructure to areas of greatest 
need. Advanced monitoring devices can identify spills or 
pollution problems when they first occur, enabling authorities 
to act quickly to mitigate the problem and avoid costly 
cleanups and risks to our public health.
    A clean environment is not a luxury. It is a necessity. We 
have years of experience to demonstrate that communities do not 
have to sacrifice public health and the environment for 
economic growth. And a clean environment is not achieved 
automatically as a byproduct of a growing GDP and expanding job 
base. Unfortunately, common essential resources--land, air and 
water--are often used as free disposal areas by industry when 
there are no standards to define and require pollution 
controls. We learned that lesson many years ago. China is 
learning it today. The impressive economic growth in job 
creation in China in the absence of enforceable environmental 
protection standards has led to serious air, water and land 
pollution in many of their industrialized areas. It is leading 
to health problems, resource shortages, and in some areas, it 
has led to companies offering hardship pay to attract skilled 
people.
    Modernizing environmental regulation implies that we will 
move forward, not backward, on environmental protection. The 
public relies on State and Federal environmental regulators to 
protect their interests. EPA and their partner agencies in the 
States are making decisions that will have impacts far into our 
future. Over the years we have seen industries come and go. 
That is the nature of a dynamic economy. But we have never lost 
our need for productive land, clean air and clean water. Tools 
to modernize environmental regulation should be evaluated to 
determine whether they indeed help agencies to achieve greater 
public health and environmental protection, and better 
recordkeeping. Web-based reporting of inaccurate or incomplete 
information achieves nothing. Fast permitting may benefit the 
permit applicant, but without robust evaluation of a proposed 
project, there is no guarantee that a new business will be the 
type of good neighbor that truly benefits an entire community.
    I look forward to hearing about the initiatives that are 
underway in the States from our distinguished panel of 
witnesses. I thank you all for being here this morning to share 
your experiences and ideas with the subcommittee. My bottom 
line, if it improves our environmental stewardship, so be it. 
Let us go forward. If haste makes waste, if it gives us a worse 
outcome and avoids the mission statement to which we are all 
assigned, no go. Thank you very much.
    Mr. Shimkus. I thank my colleague. I turn to the Republican 
side to see if anybody wishes time for an opening statement. 
Seeing none, the Chair now recognizes the ranking member of the 
full committee, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. Technology 
has an enormous potential to improve environmental protection. 
From the catalytic converter to smokestack scrubbers, 
technological advances have brought us cleaner cars and cleaner 
energy. Now mobile technology can empower citizens to monitor 
their environment and can help them access real-time 
information about chemical releases in their neighborhoods. It 
is important for regulators to embrace new technology, and EPA 
and the States have taken significant steps toward 
modernization.
    In 2011, the Government Accountability Office found serious 
problems with the State Drinking Water Information System. The 
EPA is now undertaking a significant effort to improve and 
modernize that system which will ensure that regulators and 
citizens have access to accurate drinking water quality 
information.
    Progress is also being made on hazardous substances. 
Consumers and researchers looking for information about the 
dangers of potentially toxic chemicals can now turn to the 
EPA's ChemView Web portal. That new Web site brings together 
information from multiple programs and sources in a sortable 
and searchable format. As more testing is done under EPA's 
chemical action plans, this resource will become more and more 
valuable.
    The environmental community is also using new technology to 
improve environmental protection. Just last week, an 
environmental group published the results of a partnership with 
Google that put sensors on Google's Street View mapping cars to 
detect methane leaks from utility pipes under city streets. The 
maps they produced illustrate priorities for repair and 
replacement of aging lines, helping States and municipalities 
prioritize funding and reduce carbon pollution.
    We will hear from the panel today about similar projects 
bringing attention to the health impacts from coal mining and 
empowering people to participate in the protection of their 
local environment.
    I welcome this opportunity to hear about some of these new 
tools and the strong partnership that has been created between 
EPA and the States to pursue E-Enterprise, a joint effort to 
maximize the use of advanced information technologies, optimize 
operations and increase transparency.
    I am supportive of efforts to improve the experience of 
regulated entities, but these initiatives should remain focused 
on enhancing environmental protection. The primary customers of 
environmental regulations, the people served by them, are the 
public, not the regulated entities.
    In North Carolina last year, the new Republican head of the 
Department of Environment and Natural Resources shifted the 
agency's focus from protecting the public to providing customer 
service to regulated entities. When staff resigned in protest, 
he penned an op-ed to proclaim his success in turning the 
department into ``a customer-friendly juggernaut.'' We saw the 
results of that customer service approach in the Dan River coal 
ash spill. The effects of that spill were visible across 70 
miles of the Dan River, crossing from North Carolina into 
Virginia and affecting drinking water sources for the citizens 
of Danville and Virginia Beach. According to a recent estimate, 
the economic impacts of the spill could exceed $70 million.
    So as we discuss this new technology and the potential for 
improving the process of environmental regulation, we must 
ensure that the role of regulators as protectors of the 
environment is not undermined. State and Federal regulators 
should remain focused on protecting human health in keeping the 
air and water clean.
    I look forward to today's testimony and learning how new 
technologies can be adopted to achieve these goals. Thank you, 
Mr. Chairman. I yield back my time.
    Mr. Shimkus. The gentleman yields back his time. I want to 
thank him for his comments. And now I would like to recognize 
our panel. I will do that one at a time. Your full statement 
has been submitted for the record. You have 5 minutes to 
summarize. We will not be draconian if you get off for a few 
seconds. But if you go 5 minutes extra, then you might hear the 
gavel come down. So that way we can get to questions. It is a 
large first panel. We want to make sure everyone has access to 
your testimony and questioning.
    So with that, first, we have Mr. Henry Darwin who is the 
Director of Environmental Quality for the State of Arizona. 
Sir, you are recognized for 5 minutes.

  STATEMENTS OF HENRY DARWIN, DIRECTOR, ARIZONA DEPARTMENT OF 
ENVIRONMENTAL QUALITY; DAVID CASH, COMMISSIONER, MASSACHUSETTS 
DEPARTMENT OF ENVIRONMENTAL PROTECTION; TERESA MARKS, DIRECTOR, 
   ARKANSAS DEPARTMENT OF ENVIRONMENTAL QUALITY; WILLIAM L. 
   KOVACS, SENIOR VICE PRESIDENT, ENVIRONMENT, TECHNOLOGY & 
REGULATORY AFFAIRS, U.S. CHAMBER OF COMMERCE; SCOTT SLESINGER, 
 LEGISLATIVE DIRECTOR, NATIONAL RESOURCES DEFENSE COUNCIL; AND 
  MATTHEW F. WASSON, DIRECTOR OF PROGRAMS, APPALACHIAN VOICES

                   STATEMENT OF HENRY DARWIN

    Mr. Darwin. Thank you. Thank you, Chairman Shimkus, Ranking 
Member Tonko and distinguished members of the committee. I am 
Henry Darwin, Director of the Arizona Department of 
Environmental Quality. I have been director of ADEQ since 
February 2011, and prior to my appointment as director, I 
served approximately 15 years in various staff level and 
management positions throughout the agency, including chief 
counsel and acting director of the Water Quality Division. I am 
the only director in the agency's 27-year history to have 
worked in all three of ADEQ's environmental programs, air, 
water and waste.
    As a trained hydrologist and environmental lawyer, as an 
enforcement officer who has worked to ensure regulated 
facilities comply with environmental laws, and as a former 
rank-and-file staff member who sat long hours inside a cubicle, 
I believe I bring a unique perspective to my role as the head 
of a State agency responsible for protecting and enhancing 
public health and the environment of Arizona.
    During my tenure as a State employee, I have heard many 
times the demand for increased privatization of Government 
services, as if all that ails Government could be fixed simply 
by turning over the keys to the private sector. Roughly 40 
percent of ADEQ's annual budget is already allocated to 
private, outside services. So we readily support privatization 
as being possible for an organization entrusted with the 
important responsibility of ensuring preservation of the 
delicate balance between the natural world and a society that 
depends on it for sustenance, prosperity and a rewarding 
quality of life.
    This does not mean, though, that we support entrusting the 
private sector with guarding the delicate balance between 
environmental protection and economic prosperity. To critics 
who complain about how poorly Government agencies perform, I 
say amen. Such critics are by and large correct. Most systems 
of Government are indeed a mess, but rather than having 
Government run by corporations, perhaps we might be better off 
encouraging agencies to operate more like corporations--the 
successful corporations, of course, because why would we 
emulate flops just because they operate in the private sector?
    Looking at successful businesses today, we see they have 
several things in common. First and foremost, they do a very 
good job listening to their customers. Second, they rapidly 
adapt their processes to fulfill customer expectations. They 
are also adept at using technology to deliver faster, better, 
cheaper service and integrate technology the right way at the 
right time. We only have to look to the demise of Blockbuster 
video, who used to have stores on virtually every street 
corner, to see the consequence of not keeping up with the 
American public's increasing expectation that quality products 
and services be delivered immediately and online.
    At ADEQ, we have made tremendous strides in the past 2 
years to improve productivity and efficiency for the benefit of 
our customers and shareholders by looking to the private sector 
for lessons about how to improve our processes and use 
technology to speed customer transactions. In the written 
comments I leave you with today, I elaborate on what we are 
doing, especially to deploy Lean management as a core 
philosophy and use it to instill a culture of continuous 
improvement throughout our organization. I also touch on a key 
project we have undertaken, which we call myDEQ, to leverage e-
technology to radically simplify and further speed up 
operational transactions with our customers.
    The point I want to leave you with is this. To be effective 
in meeting customer expectations, Government agencies have much 
to learn from successful private-sector businesses. What 
business knows, and what Government agencies are starting to 
learn, is that to be successful, organizations must both 
streamline processes to improve capacity for a value-added 
activity and integrate information technology solutions to 
accelerate delivery of products and services. But these steps 
must occur in the proper order. First Lean your systems then 
integrate e-solutions. Reverse this order and agencies may well 
lock-in existing burdensome bureaucracy.
    Before closing my remarks, I would like to mention my 
participation in and effort by EPA to bring Federal 
environmental protection into the 21st century. Their effort, 
known as E-Enterprise, represents an unprecedented level of 
partnership with the States. As a member of the leadership 
committee, I can tell you that EPA is not merely listening to 
States like Arizona, they are involving us deeply in developing 
a model for modern environmental protection, a model very close 
to what I have just described. Now, I am not usually one to say 
that EPA is heading in the right direction, but I can honestly 
say that I am happy to join them on this important journey and 
hope that we can count on your support. Thank you.
    [The prepared statement of Mr. Darwin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. Now, the Chair recognizes 
Commissioner David Cash from Massachusetts, the State of 
Massachusetts, and he is in charge of the Department of 
Environmental Protection. Sir, you are recognized for 5 
minutes.
    Mr. Cash. Thank you.
    Mr. Shimkus. Well, I was going to say Commonwealth, but I 
couldn't get it out.

                   STATEMENT OF DAVID W. CASH

    Mr. Cash. Thank you very much, Chairman Shimkus, and 
Ranking Member Tonko and other distinguished members of the 
subcommittee. It is a pleasure to be here today to talk about 
how the Massachusetts Department of Environmental Protection 
has been able to reach its two complementary goals of 
protecting public health and the environment and helping drive 
economic development. The agency, catalyzed by both significant 
reductions in resources and an evolving new economic 
development mission, devised a path forward that not only 
ensured the agency fulfilled its critical missions of 
protecting the environment, ensuring public health, and 
preserving the Commonwealth's natural resources, but also 
supported the needs of the Commonwealth's regulated community 
to facilitate growth and economic development.
    Between 2002 and 2011, MassDEP's budget and staffing were 
reduced by more than 30 percent with no corresponding reduction 
in the agency's statutory environmental mission. In response, 
MassDEP undertook initiatives to restore alignment between 
available agency resources and work requirements. Those 
initiatives included identification and implementation of 
alternative regulatory approaches to streamline MassDEP's 
processes and procedures and pursuing major information 
management initiatives to increase automation and effectiveness 
of agency activities.
    MassDEP's Regulatory Reform Initiative provided a mechanism 
for reviewing existing regulations to identify efficiency 
improvements which were required of all State agencies under 
Governor Deval Patrick's Economic Development Reorganization 
Act of 2010. MassDEP solicited regulatory reform ideas from a 
wide array of external stakeholders as well as from agency 
staff in consultation with other agencies including our 
Economic Development Agency. This solicitation effort included 
establishing an external Regulatory Reform Working Group to 
serve as key advisors in addition to hosting discussion forums 
with a number of other external stakeholders, with 
representatives as diverse as the Massachusetts Health Officers 
Association, Boston Bar Association, Associated Industries of 
Massachusetts, and a group of prominent environmental advocacy 
groups. Successful alternative approaches being used by other 
States across the Nation were also evaluated.
    As a result of its Regulatory Reform Initiative, MassDEP 
recommended changes that (1) streamlined environmental 
permitting requirements, (2) eliminated certain State permits 
that either were of low environmental protection value or 
duplicated local approvals, and (3) encouraged better 
environmental outcomes by reducing barriers to environmentally 
and economically beneficial projects such as renewable energy. 
The resulting programmatic changes will achieve substantial 
agency efficiencies without sacrificing environmental 
protection by allowing MassDEP to disinvest from low-value 
regulatory activities, rely upon local regulatory entities 
where redundant oversight currently exists, and utilize 
authorized and accredited third parties for selective 
environmental inspection and regulatory implementation 
services. These regulatory changes include improvements to the 
following MassDEP programs: the cleanup of oil and hazardous 
materials waste sites; public waterfront protection; wetlands 
protection; septic systems; solid waste transfer stations and 
landfills; and siting of clean energy projects. Promulgation of 
these regulations is complete, with the exception of wetlands 
and waterfront protection regulations which are due to be 
finished by the end of this year.
    One significant example of how MassDEP's streamlining of 
the regulatory permitting process resulted in reducing barriers 
to environmentally beneficial projects is the use of closed and 
capped landfills to support renewable energy facilities, such 
as solar panels or wind turbines. Previously, MassDEP 
regulations prohibited the utilization of closed and capped 
landfills for any other purpose. By understanding the 
opportunity that renewable energy facilities could provide for 
closed landfills, MassDEP revised its regulations to allow 
renewable energy projects while maintaining environmental 
protection. Just in the last couple of years, 52 projects at 
about 100 megawatts of renewable energy have been proposed, and 
23 of those are already running.
    In addition to effectively revising its regulations, 
MassDEP is undertaking an agency-wide review of its business 
processes to achieve greater efficiency and consistency across 
the Agency. The effort was initiated in coordination with 
MassDEP's proposed information system development effort, known 
as EIPAS, Energy and Environmental Information and Public 
Access System, and is intended to enable both MassDEP to 
perform timely, predictable and cost-effective permitting and 
implement data-driven strategies and policies, while responding 
effectively to environmental threats.
    In particular, EIPAS is designed to reduce uncertainty and 
time to businesses, improve stewardship of Massachusetts' 
environmental resources, use data-driven strategies and 
policies, increase civic engagement, and enhance collaboration 
and data sharing.
    Massachusetts' Brownfield programs also has incentives that 
are available to buyers and sometimes sellers of contaminated 
property, provided it is a commitment to environmental cleanup 
and property redevelopment. We have committed to this clean-up 
in such a way that we are coordinating data gathering for a 
variety of different criteria that the developing community is 
interested in accessing and coordinating this with our MassGIS 
system, so through a mapping and data program, we are able to 
provide information to municipalities and the development 
community on these sites that show great promise for both 
renewable energy development and development of more 
traditional economic development.
    Finally, by partnering with EPA on the E-Enterprise for the 
Environment Initiative, MassDEP and EPA can achieve additional 
governmental efficiencies while reducing administrative burden 
reduction. E-Enterprise for the Environment is an innovative 
21st Century business strategy utilizing joint governance of 
States and EPA to improve the performance of our shared 
environmental enterprise by closely coordinating job program 
implementation and creating efficiencies for the regulated 
community and the public.
    Through continued support of the E-Enterprise, I believe 
that EPA, the States and regulated entities will all benefit 
from a more coordinated environmental enterprise. I also 
believe that the E-Enterprise Initiative will maximize 
governmental efficiencies and significantly reduce 
administrative burdens through streamlining regulations, 
optimizing processes and coordinating system development 
activities.
    Thank you for providing me this opportunity to provide 
testimony today. I am happy to take any questions.
    [The prepared statement of Mr. Cash follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you. Now I would like to recognize 
Director Teresa Marks, Director of Environmental Quality from 
the State of Arkansas.

                   STATEMENT OF TERESA MARKS

    Ms. Marks. Chairman Shimkus, Ranking Member Tonko and all 
the members of the subcommittee, thank you for inviting me to 
speak today about my department's ongoing efforts to modernize 
environmental regulations through electronic reporting.
    By way of disclaimer, let me just say initially that I am 
probably the least tech-savvy person in this room. I am one of 
those people that when I fire up my computer in the morning, I 
am still amazed by the miracle of email. But I am a very 
practical person, and I realize the tremendous benefits that 
can be achieved through the use of electronic reporting.
    The Arkansas Department of Environmental Quality strives to 
be responsive to members of the public, whether they are 
seeking water quality data, filling out a Title V air permit 
application or reporting an environmental concern.
    We all realize that electronic reporting doesn't completely 
replace traditional ways of doing business. A citizen in Rose 
Bud wanting a speaker for the local Lion's Club will probably 
still pick up the phone, and the owner of a small salvage yard 
in Romance will most likely mail in their storm water permit 
application. But electronic reporting puts a wealth of 
information and opportunity at a user's fingertips and greatly 
benefits the department. Users save time and money, not to 
mention the sparing of a few trees. From the department's 
standpoint, electronic reporting allows us to more quickly 
respond to complaints, review permits and upload data. In this 
day and age, the large majority of the businesses and residents 
we serve are tech savvy so it behooves the department to keep 
up.
    I would like to talk briefly about what ADEQ has done to 
modernize reporting and how we plan to improve and expand 
electronic offerings in the future. Since 2012, ADEQ has used 
the State and Local Emissions Inventory System, or SLEIS as it 
is referred to, to allow permitted facilities to submit point 
source emissions inventory data online. SLEIS is compliant with 
the Environmental Protection Agency's Cross-Media Electronic 
Reporting Regulation, commonly called CROMMER. ADEQ used an EPA 
grant to develop the system in partnership with environmental 
agencies in Arizona, Delaware, New Hampshire, West Virginia, 
and Tennessee. The system has proven popular in our State with 
90 to 95 percent of reporting facilities entering their data 
directly into the system.
    Hazardous waste generators and treatment, storage and 
disposal facilities in Arkansas can use a CROMMER-approved 
system to submit annual reports that detail how much hazardous 
waste a given facility generates or manages. Clean Water Act 
permit holders can submit discharge monitoring reports 
electronically using a NetDMR system developed by EPA and used 
nationally. Again, these reporting tools streamline the 
reporting process not only for the public, but for ADEQ's 
employees as well, resulting in the saving of both public and 
private resources.
    An example of how modernized reporting has made the 
department more efficient is the use of electronic tablets in 
our Regulated Storage Tanks Division. Each inspector at ADEQ in 
the Storage Tank Division carries such a tablet when performing 
facility inspections. The inspection forms are loaded onto the 
tablets, and the inspector is able to fill out the form on site 
while in the presence of the facility operator. Once the 
inspection is complete, the facility operator signs the 
inspection report, and with the use of secure software, the 
form is locked to ensure the signature can't be copied or the 
form changed without the facility operator's knowledge. The 
inspection report can be printed on site with the mobile 
printers they carry in their truck and given to the facility 
owner who can start addressing potential issues immediately 
instead of waiting for a copy of the report to arrive through 
traditional mail services.
    We are excited about the strides we have made to modernize 
reporting in recent years, but in many ways the best is yet to 
come.
    I often say that the citizens of Arkansas are our eyes and 
ears. Our inspectors insure that facilities across Arkansas 
comply with their permits, but they can't be everywhere all the 
time. Currently citizens can submit complaints online 24 hours 
a day or call our offices directly when they see something they 
view as an environmental hazard. Our staff is developing a 
mobile application that would allow users to submit complaints, 
along with GPS coordinates and photos, from their phones. Those 
details will aid our inspectors in determining the severity of 
any violation as well as the exact location of the area of 
concern. This information will be invaluable in addressing 
violations in a timely and efficient manner.
    Finally, we are in the late stages of developing an ePortal 
system that will allow applicants to apply for permits, 
licenses and registrations online. The ePortal system, which we 
hope to roll out in the fall, was developed using CROMMER 
standards and is currently being reviewed by EPA. The first 
feature to go live will be the online permit applications 
submission process. The development of this system has involved 
an incredible amount of staff time and resources, a good bit of 
trial and error and a lot of testing. But we are confident the 
end result will be well worth the effort.
    Electronic reporting has allowed the department to be more 
efficient and more responsive. We hope to continue to improve 
and expand our offerings to meet the demands of the public in 
the most efficient and effective way possible.
    Thank you for your time. I would be happy to answer any 
questions.
    [The prepared statement of Ms. Marks follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shimkus. Thank you very much. Now I would like to 
recognize Mr. Bill Kovacs representing the U.S. Chamber of 
Commerce. Welcome, sir. Five minutes.

                 STATEMENT OF WILLIAM L. KOVACS

    Mr. Kovacs. Good morning, Chairman Shimkus, Ranking Member 
Tonko and other members of the committee. Thank you for 
inviting me here today to discuss modernizing the business of 
environmental regulation and protection.
    The committee should really be commended for this very 
important issue dealing with the Federal-State relationship, 
especially in the implementation of environmental laws. The 
relationship between the States and EPA is very important 
because the States manage most of the implementation, 
permitting, enforcement, inspections and data collections for 
Federal environmental programs. According to ECOS, the 
Environmental Council of the States, the States manage 
approximately 96 percent of the Federal programs that are 
delegated to the States. And I think it is fair to say that 
without the States' cooperation and willingness to assume these 
responsibilities, EPA would have a difficult time implementing 
Federal statutes.
    The Chamber is also pleased to learn that ECOS and EPA are 
partnering in the E-Enterprise Initiative. My understanding is 
that E-Enterprise Initiative aims to modernize environmental 
programs in order to reduce paperwork, enhance services to the 
regulated community and streamline operations. E-Enterprise is 
presently in a concept phase, so it is kind of hard for us to 
offer a blanket support for the program. But we do offer a 
general support because we think it is an excellent idea, and 
any way in which the business community can help, we would be 
glad to assist.
    It is important to note, however, that over the last--since 
really since the Carter administration, many of these efforts 
have been tried, and really, we have had somewhat of a mixed 
success. What seems to happen is the streamlining efforts 
literally get overwhelmed by a regulatory system that 
continuously becomes much more complex and much more costly. As 
a result, the States assume responsibility for managing more 
programs, implementing and enforcing more and newer regulations 
in shorter timeframes, and they have to do all of this with 
less money. In fact, the amount of money awarded to the States 
by the Federal Government has been reduced from $5 billion in 
fiscal year 2010 to $3.6 billion in fiscal year 2013.
    So the complexity and the cost of the mandates imposed on 
the States are significant, and they are really going to get 
worse as we cut the budgets. I think just this year, if you 
look at it, you are going to see three very complex and staff-
intensive rule-makings that the States are going to have to 
pick up over the years: greenhouse gas regulations for existing 
power plants, ozone for which the States are going to do 
implementation plans and Waters of the United States. These are 
three huge programs that they are going to have to deal with. 
So we need to be conscious of how much we can impose upon the 
States and how much we can ask them to do with the resources 
that we are willing to give them.
    So I have several suggestions. One is anything we can do to 
help on E-Enterprise, let us know. We will help. The Chamber 
has been very active in pursuing what we call permit 
streamlining. We believe it is one of the few efforts in the 
Federal Government that has really garnered an enormous amount 
of bipartisan support. The House passed a bill on permit 
streamlining, H.R. 2641 with bipartisan support. The Senate 
Federal Permitting and Improvement Act, sponsored by Senator 
Portman, has six Democrat cosponsors, and permit streamlining 
was one of the top recommendations of the President's Jobs 
Council. It has been the subject of several presidential 
directives, and it has been the focus of the new infrastructure 
initiative released by the White House. I am not saying there 
is all agreement, but we are much closer on this issue than we 
are on most.
    Second, I think we can look at just some practical things. 
EPA promulgates, for example, National Ambient Air Standards. 
Every 5 years it must be revised. By law they must at least 
review them. And every 5 years, EPA does revise them. This is 
very rushed because when you are a State, the States have to go 
back, and they have to, once they get the Federal mandate, they 
have to design it, they have to implement it and many times 
they have to litigate it. And we are saying that rather than 
doing something every 5 years, there should be more discretion 
because what happens is if you do everything in a 5-year 
period, the States really never catch up. They just finish, and 
they are onto a new system. And it is so rushed, that we really 
never get a time even to find out what is working and what is 
not. I think Federal agencies should truly look at the Unfunded 
Mandates Act and so should Congress. They should look at 
regulatory alternatives.
    And finally, I really think that the States do a fabulous 
job. In the course of the year they end up doing hundreds of 
thousands of types of transactions and enforcements and 
inspections. But sometimes the EPA decides that it wants to 
over file them because it doesn't like one particular way in 
which they are handling an issue.
    So anyway, with that I will quit, and thank you very much. 
I will answer any questions.
    [The prepared statement of Mr. Kovacs follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much. The Chair now recognizes 
Scott Slesinger, Legislative Director for the National 
Resources Defense Council. He has appeared before us many 
times. Welcome back, and you are recognized for 5 minutes.

                  STATEMENT OF SCOTT SLESINGER

    Mr. Slesinger. Thank you, Mr. Chairman, Ranking Member 
Tonko, members of the subcommittee. Thank you for the 
opportunity to testify today. My name is Scott Slesinger, and I 
am the Legislative Director of the Natural Resources Defense 
Council. NRDC is a nonprofit organization of scientists, 
lawyers and environmental specialists dedicated to protecting 
public health and the environment.
    Before becoming the legislative director, I spent a decade 
promoting the e-Manifest concept as a lobbyist for the 
hazardous waste disposal industry. My remarks reflect that 
experience as well as my years as a regulator at EPA and my 
current perspective at NRDC.
    The striking lesson trying to move towards electronic 
manifest was how new technologies gradually put to rest 
concerns over security and costs. There was plenty of 
resistance at the outset. The Justice Department had serious 
concerns about anything but a handwritten signature, based on 
hundreds of years of American and common law jurisprudence. 
This concern about new-fangled technology in some ways echoed a 
mortgage bankers' magazine article from 1947 that talked about 
the signature problems spawned by a new technological invention 
that they said was made for counterfeiters: the ball point pen.
    When I left the industry in 2009, the major technology 
problem was how to allow waste haulers to confirm delivery by 
use of a landline. The idea that virtually everyone would have 
a smartphone was just not contemplated. Another problem was how 
and who should pay for the reduction of the paperwork burden on 
companies. This was finally compromised, and the bill 
authorizing electronic manifests passed this committee and was 
signed into law.
    A key lesson learned through this process is that 
technology keeps changing. The goal of finding a platform and 
using it over and over again, which is contemplated in the E-
Enterprise principles, must be done with care and eyes wide 
open. Tomorrow's technology may make today's cloud tomorrow's 
VCR.
    The other hurdle to get e-Manifest authorized was how hard 
it was to pass even what we thought was minor changes in basic 
environmental laws. Manifest changes at least 10 years. Many 
more of the advances in electronic reporting will regulatory 
changes. However, regulatory process because of executive 
orders and required impact statements is so convoluted it often 
takes the agency more than 6 years to do a simple regulatory 
change, enough time to make a rule dealing with new 
technologies obsolete before the rule is final. Proposals to 
expand these processes for guidance documents and adding on top 
of that something like the REINS Act places epic hostile 
artificial barriers in the path of EPA and State modernization.
    Using new technologies is necessary as industry becomes 
wired and budget cuts make working the traditional way 
unsustainable. But these benefits come at a financial start-up 
cost to develop while this Congress continues to eviscerate the 
EPA budget.
    The E-Enterprise vision implies that improving 
environmental outcomes and dramatically enhancing services to 
the regulated community and public are equal principles. We 
believe the number one goal of E-Enterprise should and must be 
striving for better environmental outcomes. Reducing paperwork, 
as with the manifest, is a nice outcome. But EPA should not be 
investing its few dollars, now at a long-time low, for anything 
that does not advance EPA's mission of improving the 
environment and public health.
    The movement towards E-Enterprise in enforcement is 
positive because it could lead to more and cheaper inspections 
and enforcement. However, because of the budget cuts E-
Enterprise is helpful but insufficient. However, EPA's 
strategic plan promises significantly less compliance and 
enforcement efforts going forward, even using new technologies. 
Cuts in environmental enforcement inevitably lead to less 
protection and unfair competitive disadvantage to responsible 
companies who play by the rules. EPA's plan to use technology 
and aim its enforcement at the greatest threats in the largest 
companies lies a problem. How can they tell where these threats 
are with their acknowledged reduced capacity? Aiming at just 
the large companies doesn't help, either. Actual experience 
shows that many times, such as the recent spill in West 
Virginia or the kepone spill that closed the James River, that 
very small companies can cause substantial harm. Recent 
amendments and proposals outlined in my footnotes in my 
testimony show that essentially taking low-profit-margin 
recyclers of toxic hazardous materials off the grid--companies 
under tremendous pressure to cut corners--worry the 
environmental community and these companies' local communities, 
at least in those communities that even know what these 
companies are doing. High-tech monitoring only works with 
companies that have the technology and the States even know 
exist.
    Because of other priorities, the environmental community, 
and particularly the environmental justice communities, without 
a substantial outreach by the States and EPA, could be detached 
to the E-Enterprise effort. We believe the final products of E-
Enterprise will be significantly improved if meaningful efforts 
are made to include these customers in the development of these 
programs.
    Thank you.
    [The prepared statement of Mr. Slesinger follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you very much. And last but not least is 
Matt Wasson, a Director of Programs for the group Appalachian 
Voices. Sir, you are recognized for 5 minutes.

                 STATEMENT OF MATTHEW F. WASSON

    Mr. Wasson. Thank you, Chairman Shimkus, Ranking Member 
Tonko and members of the subcommittee for the opportunity to 
speak today. My name is Matt Wasson. I am the Director of 
Programs at Appalachian Voices. We are an organization 
dedicated to protecting the land, air, water and people of the 
Southern and Central Appalachian region.
    Appalachian Voices supports the committee's goal of 
modernizing environmental regulation and protection. Certainly 
using technology and science to achieve better environmental 
outcomes at lower cost is a goal that we, and I think all 
Americans, share. But modernization doesn't only mean finding 
technological solutions. Modernization means adapting to modern 
realities.
    And so in the context of today's hearing, it is useful to 
ask, what has changed over the 40 or 50 years since Congress 
passed the Nation's key environmental laws and our modern State 
and Federal regulatory apparatus that was put in place? 
Certainly the ability of private interests to influence the 
political process has skyrocketed in recent years, and that 
influence is even greater at the State level than it is at the 
Federal level. That means that the ability of regulated 
industries to influence the regulatory process at the State 
level is greater than it has ever been. Any genuine attempt to 
confront that threat requires a greater, not lesser, role for 
Federal agencies like the EPA.
    Another thing that has changed since the 1970s is the 
assumption underlying our key environmental laws, that industry 
can be trusted to self-report environmental violations to 
regulators. That now appears naive, at least as it applies to 
the coal industry in Appalachia.
    As I went into in depth in my written testimony, the 
biggest coal companies in Kentucky for years routinely failed 
to deliver discharge monitoring reports to State regulators in 
addition to filing false reports that regulators failed to 
detect until environmental groups like Appalachian Voices 
stepped in. Worst of all, companies appear to have manipulated 
water quality results in a manner that is virtually impossible 
to explain with an innocent explanation. For instance, the 
statistical likelihood that the conductivity values submitted 
by one of the biggest coal companies in Kentucky could have 
occurred through natural variation approaches one in a google. 
That is one with 100 zeroes after it.
    Modernizing environmental regulation protection in this 
context means confronting this reality and investing more 
resources and manpower in State and Federal regulatory 
agencies' ability to review and independently verify the 
discharge monitoring reports provided by coal companies. 
Decreasing the funding and power of these agencies' funding 
moves in the direct opposite direction of modernization.
    Most importantly of all, there was little scientific 
information linking mountaintop removal to elevated cancer and 
other disease among nearby residents back in the 1970s or even 
10 years ago. But as I discussed quite a bit in my written 
testimony, a trove of peer-reviewed scientific studies and 
multiple independent sources of information have emerged over 
the last 5 years that regulators should not continue to ignore.
    Here are the modern facts for people living near 
mountaintop removal mines in Appalachia. And if we can have 
that first slide?
    [Slide.]
    Mr. Wasson. People living near mountaintop removal mines in 
Appalachia--which are shown in red on the slide--are 50 percent 
more likely to die from cancer than other people in Appalachia. 
In addition, their children are 42 percent more likely to be 
born with birth defects.
    Next slide, please. Did you skip one? My apologies.
    [Slide.]
    We can continue on. People living near mountaintop removal 
or in counties with mountaintop removal mining in Appalachia 
have a life expectancy that is far behind the national average 
and is comparable to people living in developing countries like 
Iran, Syria, El Salvador, and Vietnam. And these negative 
trends are not just about health. They also include 
socioeconomic trends. For instance, the counties where 
mountaintop removal mining occurs are seeing some of the most 
rapid population loss of anywhere in the country, as the next 
slide shows.
    [Slide.]
    Mr. Wasson. Modernizing environmental regulation and 
protection in Appalachia means confronting these facts 
directly, and it happens that this subcommittee has unique 
ability to do just that. A bill called the Appalachian 
Community Health Emergency Act, or ACHE Act for short, was 
reported to this subcommittee. I am not in a position to speak 
substantively about the bill, but fortunately, Congressman 
Yarmuth, the lead sponsor, was able to join us today. I thank 
you, Congressman.
    What I can say is this. The voices of the Appalachian 
residents supporting the ACHE Act deserve to be heard, and this 
committee should hold hearings on that bill and the community 
health emergency in Appalachia that the bill addresses.
    One final thing that has changed dramatically in Appalachia 
since the 1970s is the simple geological reality that the 
highest quality and easiest to access coal seams have been 
mined out. In addition, the modern reality of energy markets is 
that Appalachian coal simply can no longer compete with 
inexpensive new sources of natural gas. What this means is that 
the market for Central Appalachian coal is going away, and it 
is not coming back.
    Appalachians are proud of the contribution their region has 
made in supplying affordable energy to power America's rise to 
the greatest economy on Earth. But the word modernization in 
Appalachia means looking beyond the coal industry for a 
sustainable source of jobs and economic growth in the region.
    Thank you, Mr. Chairman. I will be happy to take any 
questions.
    [The prepared statement of Mr. Wasson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you, and now we will begin our opening 
statements. And just, Mr. Wasson, I would say you are correct 
in the market debate of what is going on in West Virginia and 
the coal, but I will tell you, thanks for the challenging of 
the lower coal seams, coal mining in Southern Illinois is 
increasing, and that helps our economy in Southern Illinois. So 
we understand the economic reality. We welcome these jobs in 
Southern Illinois.
    Director Darwin, I was curious. You mentioned the word 
customers. Who are your customers?
    Mr. Darwin. Mr. Chairman, our customers really depend on 
the product or service that we are delivering. And we define 
customers as the end-user of the product or service. So an end-
user could be the permitee that has applied for a permit and 
ultimately going to have to comply with the permit, understand 
the permit, implement the terms of the permit. If we are 
developing a Web service of some sort that is available to the 
public, the public being the end-user of that Web service would 
be the customer in that context.
    So customer doesn't always mean the regulated community. It 
could also mean the general public so long as the service that 
we are providing or the part that we are delivering has them as 
the end-user.
    Mr. Shimkus. Could it also mean public interest groups like 
the NRDC or the Sierra Club or Appalachian Voices if they 
were--if Appalachia were a part of your State, which it is not? 
I know that.
    Mr. Darwin. Certainly, that would be the case. Like I said, 
so long as whatever we are delivering as a product or service 
has them being one of the end-users and because they are a 
member of the public and we serve the public, a lot of the 
things that we do have the end-user, the general public, in 
mind.
    Mr. Shimkus. Mr. Cash, I also was very interested in your 
opening statement and also the phrase low environmental 
protection value. How did you make a determination--I mean, 
sometimes we have our debates here, and we never get to that 
point because anything mentioned environmentally is high. We 
can't even classify that in our debate on chemicals sometimes. 
Obviously you did that. Talk me through how you did that, and 
did you have public involvement? Did you have the private 
sector? Did you have the, you know, obviously the 
nongovernmental organizations? Did you have the public as a 
whole? How did you do that, make that determination.
    Mr. Cash. Thank you very much, Chairman. It is a great 
question. And when we were faced with the declining budgets, it 
became very clear that there were multiple interested parties 
that were concerned about steps forward. Certainly you had the 
environmental community that was concerned that environmental 
protection would become more relaxed, and that was of grave 
concerned to our agency as well. And then you had the regulated 
community that was concerned that permitting times would take 
longer, it would become a more complex kind of endeavor moving 
forward. And so I think the real answer to your question is 
that we had a very robust stakeholder process and an advisory 
group that was formed that wasn't just an ad hoc, one-time 
meeting. This was--these were people from the regulated 
community, environmental communities, municipalities, other 
State agencies who are engaged in this long-term discussion 
about, how do we do more in a more budget-constrained 
environment? How do we continue to protect the environment? How 
do we continue to allow the regulated community to have the 
certainty and timeliness that it needs?
    And so we had very difficult conversations about where 
there might be places that we could reduce the efforts that we 
did. Now, some of these were relatively easy where we found 
places where there were multiple redundant permits, State and 
local permits that regulated the same kind of wetlands but 
forms had to be filled out for all three, et cetera. That was 
relatively easy. But an example of what you are talking about 
those kinds of environmental values that we felt like in a real 
budget-constrained environment, what could we focus on less. 
One, for example, was docks and piers, small docks and piers, 
which underwent basically the same kind of resources for large 
coastal or wetlands projects, and here in agreement in this 
advisory committee we said, you know what? We could put a 
little less resources into the evaluation of these kinds of 
permits.
    So the real answer is that it was through these 
conversations that we had collectively, and there was not 
consensus everywhere, of course, but everybody had a stake at 
the table. And as we changed our regulations, each of those 
regulations then went through another, the official public 
process with public hearing.
    Mr. Shimkus. Thank you. And if I can, I want to follow up 
with you on that, and maybe there is a process by which we can 
adapt here to help us move forward.
    Mr. Cash. Absolutely.
    Mr. Shimkus. And Ms. Marks, also since I am from a large 
rural area--I represent 33 counties. There are 102 counties in 
the State of Illinois--your debate on your tablet issue, I want 
you to highlight it again. Based upon from my understanding, 
the travel time of the investigators using technology, explain 
how that is especially in a rural area where the investigators 
have to go out and travel long distances.
    Ms. Marks. Well, I certainly think that the time saved, 
resources saved for both the regulated community and the 
department have been great with the use of the tablets, 
particularly as you said in the rural areas. We have nine field 
offices across the State, but before we began the use of the 
tablets, our tank inspectors used to go out and they would have 
a clipboard, and they would make notes on their clipboard. And 
they would come back to the field office, and they would enter 
the information into the computer, and it would go into the 
main system. And then a letter would be sent to the owner-
operator telling them the results of the inspection and what 
needed to be fixed, and then we would go from there on seeing 
how those repairs were done. It was just a time-consuming 
process.
    Now when our inspectors go out, they have a portable 
printer in their trucks. They have their tablets that have the 
forms loaded onto them for the inspections. They walk around 
with the owner-operator who is right there beside them, and 
they do the inspection with them present. They tell them, you 
know, what they see. They will point out to them where the 
problems are exactly. And then once they go over the report 
with them after the inspection is over, the owner-operator 
signs the report, which seals the report. It cannot be changed 
after that. And then they print it out there and give them a 
hard copy, or they will email to them, whichever they prefer. 
And that has made compliance much more rapid with those types 
of issues because the owner-operator for one thing is aware of 
what the report is going to say immediately, and it increases 
our credibility with the regulated community because they know 
we can't change that report when we get back.
    Now, indeed if the main office looks at the report and 
finds out there is some problem, there might be some mistake, 
something that was done wrong, we have to do an addendum. We 
can't change that report.
    So it begins with the regulated community knowing 
immediately what is going on and what they need to improve so 
they can get started on that immediately. And oftentimes it is 
taken care of within a few days.
    Mr. Shimkus. Thank you. My time has well expired. The Chair 
now recognizes Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, but I am going to yield to 
the gentleman from California who has a conflict, another 
hearing.
    Mr. Shimkus. The gentleman from California is recognized 
for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman and Mr. Tonko, for 
allowing me to ask my questions. Dr. Wasson, your testimony 
covers a number of important environmental problems including 
disturbing health trends in communities around mountaintop 
removal sites. But I would like to ask about your work to 
address coal ash contamination, an issue that has been a major 
focus of this subcommittee.
    What are some of the problems you have seen from unsafe 
coal ash disposal?
    Mr. Wasson. Thank you, Congressman Waxman, for that 
question. The Appalachian Voices, my organization, does work--a 
lot of our time is spent trying to address the problem of 
unsafe coal ash practices in North Carolina and other States 
around the Northeast, or the Southeast. And certainly the most 
dramatic problem we have seen recently was the Dan River coal 
ash spill when 40,000 gallons of toxic coal ash spilled into 
the Dan River, an entirely avoidable accident.
    In North Carolina we have 14 sites where coal ash is 
stored. In every site, these are being stored in unlined 
impoundments that have been shown to be leaking, leeching toxic 
and heavy metals into groundwater as well as seeping 
contaminants into nearby surface waters. These are all built 
directly adjacent to large waterways, many of which provide 
drinking water for millions for North Carolinians.
    Mr. Waxman. Well, we have heard repeatedly people on this 
committee tell us that the States are doing a good job of 
regulating coal ash, but your testimony tells a different 
story.
    Mr. Wasson. That is right. I don't think that many people 
in North Carolina, certainly many elected officials of both 
parties, and the media have complained very loudly about the 
poor state of regulation of coal ash in the State. The fact 
that these impoundments were leaking and leeching into the 
nearby surface waters was not discovered by the State, by any 
of the State regulators until environmental groups went out and 
actually did the monitoring and discovered some of these 
problems and filed suit. And then eventually the State stepped 
in, but as you probably know, the State is actually under a 
criminal investigation around how the State agencies have 
handled----
    Mr. Waxman. Which State is that?
    Mr. Wasson. North Carolina.
    Mr. Waxman. North Carolina. So if we rely on the States to 
do this without Federal backup of any sort, there is a lack of 
transparency, a lack of enforcement, a lack of necessary 
safeguards. It seems like a lack of even trying to understand 
what is happening with the coal ash. How are your organizations 
and others using technology to fill in some of the gaps in 
Federal and State efforts to ensure safe disposal?
    Mr. Wasson. So we work with a coalition of groups led by 
the Southern Alliance for Clean Energy based out of Knoxville 
that has provided online tools so that people can understand 
where these coal ash impoundments are, if they are living next 
to them and actually obtain information about what--the ground 
water testing that is happening there so that they have a sense 
of what is going into their groundwater. Again, in a State like 
North Carolina, 50 percent of the residents rely on wells for 
their drinking water. So this is a very big concern.
    Mr. Waxman. Well, if you are monitoring data and other 
information and it becomes accessible on the Internet or 
through cell phones, how do we make sure that those who don't 
have access to that technology get the information they need?
    Mr. Wasson. And that is the excellent question and is why I 
think technology is very limited in its ability to help with 
some of these problems. Certainly in coal mining regions in 
Appalachia, access to high-speed Internet like DSL or cable or 
even cell phone reception seems like a distant dream in many of 
these communities. It requires very resource-intensive, boots-
on-the-ground kind of efforts in order to engage folks who are 
living with the greatest threat.
    Mr. Waxman. I had argued for the last several years that 
strong Federal coal ash regulations are needed to protect 
public health and the environment from toxic elements, 
including arsenic, lead, mercury and selenium. Will State 
action be enough or do you think we need a strong Federal 
regulation for coal ash? And EPA is finalizing their coal ash 
rule. Can citizen participation play an important role in 
highlighting the need for strong enforceable Federal standards?
    Mr. Wasson. I think the situation in North Carolina is one 
of the best arguments I can provide for why we do need, we 
absolutely do need, a strong Federal rule in coal ash 
regulation. It is going to be a disaster I think if we leave 
most of that up to the States.
    Mr. Waxman. Thank you, Mr. Chair.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thanks very much to our panel for being with us today. I really 
appreciate your testimony. A little background. I know the 
members of this subcommittee have already heard me say this, 
but I represent a district with 60,000 manufacturing jobs, and 
right along the same line I also represent the largest 
agriculture district in the State of Ohio. So dealing with 
regulations and complying with them are one of the things that 
I hear from my constituents the most. And a couple of years ago 
the SBA had come out and said that we have $1.7 trillion of 
regulations here in this country, and unfortunately, it was 
updated this year to $1.9 trillion.
    So interesting enough, when I spend time out in my 
district, going through hundreds and hundreds and hundreds of 
different plants and businesses across my district, the number 
one issue I always hear about is regulations.
    And if I could start with Mr. Kovacs, I found it 
interesting, your testimony, because I think that it is also 
always interesting to remember these things. On page 5 of your 
testimony you state that the Hoover Dam was built in 5 years, 
the Empire State Building took 1 year and 45 days, the Pentagon 
less than 18 months, the New Jersey Turnpike 4 years from 
inception to completion. Then you fast forward to 2014. The 
Cape Wind needed over a decade just to receive the necessary 
permits to build an off-shore wind farm. And it is interesting 
that you point these things out because as you look at where we 
have gone from start to finish and how fast these regulations 
have kicked in, you know, it is like I hear from the 
businesses, but I have never heard any of my businesses ever 
out there ever say this, that they are not for clean air or 
clean water. They want to make sure that is happening. But it 
is really the over-burdensome regulations that they have to 
comply with.
    But if I could, you also show on page 5 of your testimony 
on the time required for processing your permit to drill on 
Federal versus State lands, and you point out that the 
Institute for Energy Research testified that it currently takes 
more than 300 days to process a permit to drill for oil and gas 
on Federal lands on shore while it takes less than 1 month to 
process a permit for the same drilling activities on State and 
private lands. And also you point out in your graph on page 5 
that Ohio in particular is one of the fastest permit-processing 
States. Would you agree that Ohio's efficiency does not make 
them less environmentally protected?
    Mr. Kovacs. I would agree with that, certainly.
    Mr. Latta. Now, why would you agree with that?
    Mr. Kovacs. Well, when you understand the permitting 
system, to just even start a permit you have to do a whole 
series of things. You have to do engineering drawings. You have 
to do testing of the air, the water. You have to do site plans. 
All of that must be done in order even to file for a permit. 
And so when they review it, the agency reviews the technical 
data, and the technical data is going to be almost virtually 
the same in Ohio or with the Federal. The difference between 
the two programs is that in the Federal program, if there is 
any Federal nexus at all, the program moves into an area where 
there is no coordination. By that I mean there is really no one 
running the show. There are no time limits on when the permit 
has to be reviewed. And anyone can jump into the permitting 
process at any time, and you can go into a conflict between 
State, the environmental impact statements, and Federal, even 
if they have the same laws.
    So when you go under State law, you are getting a much 
faster process because you just don't have as many ways in 
which to stop the problem, and it is managed closer to a 
business which I believe someone had talked about. And the 
approach that we have been arguing and the House has been 
forward on and the Senate is, put someone in charge of the 
program. We are not telling them what to do. Give them a role 
as a lead agency and to coordinate. Give everyone time limits 
in which to participate. If they don't want to participate in 
the time limits, then they don't have to, but then they are out 
of the program, and make a decision. And that is really what 
the key--we are not talking substance here. We are talking 
process.
    Mr. Latta. So is this how--when you, in your testimony, 
also state about improving and streamlining the process--is 
that how you go about it, or other ways you see it?
    Mr. Kovacs. No, that is how we would go about it.
    Mr. Latta. OK. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the subcommittee, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. I am very interested in 
today's testimony about ways to improve our environmental 
monitoring through better technology at the State level and 
through greater public participation. Obviously the sooner 
pollution is detected, the faster it can be contained and 
remediated. For example, an inspection of the tank that leaked 
in West Virginia could have prevented widespread harm, but 
inspections require resources, both from the regulatory agency 
and the regulated entity.
    With that being said, Mr. Slesinger, you testified that EPA 
is planning to reduce the number and frequency of inspections 
it conducts. Is that correct? Did I hear that correctly?
    Mr. Slesinger. Yes, in their strategic plan there is a 
substantial reduction in the amount of enforcement action, 
civil actions, inspections going forward, mainly because of the 
reduction in budget.
    Mr. Tonko. Do you have concerns about the impact that that 
shift would have on compliance?
    Mr. Slesinger. We are very concerned. As Ms. Marks 
mentioned, the key to compliance in her State was walking 
around. It is with a new, high-tech gadget that makes it much 
more efficient, but the key is getting someone to do the 
walking around. And as you mentioned in the spill in West 
Virginia, it had been I think decades before someone from the 
State had been on that site.
    So if you are going--yes, if you use these high-tech 
technology, you can probably do more with less, but when the 
less is so much less that you are doing significantly less, 
feet on the ground, going to sites, helping people get in 
compliance, you are going to have more problems.
    Mr. Tonko. Well, I had served in our State Legislature in 
New York for 25 years, and I know that we have a sound track 
record with the environment. But I would have to agree that all 
States do not play the same degree of intense role in enforcing 
many environmental regulations.
    Dr. Wasson, can you briefly describe some of the problems 
you have seen in State enforcement of environmental 
regulations? I know you mentioned some, but can you share some 
other scenarios with us, please?
    Mr. Wasson. Sure. I think what it boils down to time and 
again is it takes us filing a lawsuit or entering in some sort 
of proceeding to get the States to act. They are not doing it 
on their own. That is true in North Carolina. That is true in 
Kentucky in the examples I gave in my written testimony. It is 
true in other States that we worked in.
    And so I think you have a lot of hard-working and very 
well-intentioned State regulators that are strapped for the 
resources to do their jobs effectively. And that is, you know, 
what it really boils down to. In the State of North Carolina, 
we just cut the funding by as much as I think 25 and then on 
top--more than 25 percent for our State agency. They just can't 
do the job that we mandate them to do with the resources that 
are available to them, and I really think that that is the 
underlying problem.
    Mr. Tonko. Right. I know that a number of States and 
organizations have indicated that doing more with less has now 
become doing less----
    Mr. Wasson. That is exactly right.
    Mr. Tonko [continuing]. With less. What role can informed 
citizens play in your view in informing environmental 
regulation?
    Mr. Wasson. Well, it is informed citizens, you know, in the 
cases that I gave of, you know, fraudulent water quality 
monitoring in Kentucky or the leaking coal ash impoundments in 
North Carolina. It is engaged citizens that are entirely 
responsible for why we have any enforcement actions at all.
    So it is our job as environmental advocates to get more 
citizens engaged. I liked very much what Ms. Marks had to say, 
citizens being the eyes and ears of the State agencies. We also 
very much see it that way, and I think that there is a role to 
play for citizens when the State agencies just are not able to 
fulfill their mandate.
    Mr. Tonko. And what are some of the steps that your 
organization has taken to empower citizens to monitor and 
enforce environmental laws?
    Mr. Wasson. The Appalachian Citizens Enforcement Project 
that I spoke about in my written testimony is one example where 
we are actually going out and we are training people to monitor 
the water quality in streams near their homes. We are providing 
them with the equipment to do that as well as some expert 
consulting to help answer questions and help them do something 
with that information. It is one thing to find that the water 
across the, you know, road from your house is polluted. It is 
another to actually take action on that and get that problem 
corrected.
    And so, you know, it takes a lot of hand-holding, honestly, 
for regular citizens to be able to engage at that level, but it 
is possible, and we are proving it is possible. We are working 
with groups all across Appalachia that are every day proving 
that it is possible to get people engaged in this.
    Mr. Tonko. And I know my 5 minutes have expired, so I will 
yield back.
    Mr. Shimkus. The gentleman yields back his time. And the 
Chair now recognizes the gentleman from West Virginia, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman. In light of some of 
the testimony that has been given, I would like to ask 
unanimous consent that this article by Dr. Borak be included in 
the file.
    Mr. Shimkus. Let me--I am sure we will accept it, but let 
me make sure the minority has taken a look at it. And you can 
go ahead, and we will make that request.
    Mr. McKinley. I think what Dr. Borak says in light of some 
of the comments that have been made here is that I think we 
have heard once again there seems to be an attack on the coal 
industry on West Virginia. I thought we were having a panel on 
modernization and how we work, but this has turned into a 
little bit on the part of some of the folks one more attack on 
our coal miners in the industry. And what Borak goes on--his 
report says coal mining is not per se an independent risk 
factor for increased mortality in Appalachia. Appalachians 
suffer disproportionately poor health and significantly higher 
mortality rates than the rest of the nation. The Appalachian 
counties with the poorest health are also the most economically 
depressed, least educated and those with limited access to 
social and medical services.
    So to try to connect that to mountaintop mining is a 
stretch. There may be a connection. I am not going to dispute 
that. But I think we have to take other things into 
consideration. Smokeless tobacco or tobacco use. I didn't see 
that on the chart to see whether or not that. I didn't see a 
chart about diabetes. Could that be affecting health and cancer 
issues with that?
    So I think we have to be fair when we are doing these kinds 
of reports that we have an--try to be more unbiased than what I 
have heard in this testimony so far.
    Also Dr. Wasson, in your report you talked about how the 
sports fishing industry creates more jobs than the surface coal 
mining. And maybe it does. Maybe it does. But I tell you, the 
coal mining jobs that are being paid $50,000 and $70,000 a year 
are far better than the sports fisherman that may be in the 
$25,000 job. If we are trying to get these people out of 
poverty, we need to have good-paying jobs, and once more, an 
attack on the coal industry because we have got counties in 
West Virginia and Eastern Kentucky that just simply don't have 
other alternatives. That is what they say. They are 
economically depressed, and to take away something that is a 
good-paying job is really a threat to their livelihood.
    So I think we have to be careful about jumping to 
conclusions. I wish one of the proponents that were here today 
to continue on with this discussion instead of skipping out. 
But you also raise a good point, Dr. Wasson, about Yarmuth. 
Yarmuth's bill is interesting, and I hope it does get a 
hearing. I think we need to have those kind of--we can't be 
afraid in Congress to talk about tough subjects. But at the 
same time it was announced earlier today that we have 321 bills 
sitting over in the Senate, not being acted on.
    So I would say that perhaps maybe that is a good trade. If 
we are going to take up Yarmuth's bill, then maybe other body 
ought to take up some of the bills that we have sitting over 
there that have to do with jobs, healthcare, coal mining and 
the like.
    Let me touch just closing again with your issue about the 
fly ash because I think your group and some of the groups that 
you represent were opposed to the fly ash bill as passed out of 
the House four times. It is one of those bills that is sitting 
over--the 321 that is sitting over there in the Senate without 
action. It would have addressed all of the problems that you 
have talked about, all the leakage. The fly ash bill, the 
legislation of the coal ash bill took care of impoundments. It 
took care of dam safety. It took care of water leakage. All 
those issues were taken--but yet groups that you are engaged 
with opposed the legislation. I think it is hypocritical that 
you are coming here and telling us that we need to do it when 
we have done that. We have passed that, but the Senate, the 
other body, won't take those bills up.
    I hope that you can be more fair in your assessment in the 
future, all of you, as we address these issues of 
modernization. Let us stay to the subject matter.
    So are you telling me that Randy Hoffman, the DEP, is 
incapable of handling issues in West Virginia on DEP?
    Mr. Wasson. I do not in any way mean to impugn Mr. Hoffman 
and----
    Mr. McKinley. But you have used the----
    Mr. Wasson [continuing]. And his ability to do his job.
    Mr. McKinley [continuing]. Freedom Industry's tank. You 
have talked about the surface mining. All of those issues come 
under his purview, and you are denigrating him. You are running 
him down. Is that fair?
    Mr. Wasson. I am saying the facts on the ground show that 
the goal, the environmental outcomes that we would expect, are 
not being achieved. The health of people----
    Mr. McKinley. Should he be fired?
    Mr. Wasson [continuing]. In those counties----
    Mr. McKinley. Should he lose his job?
    Mr. Wasson. That is--I do not have a position on whether or 
not Mr. Hoffman should have his job. I am simply observing that 
if we look at just the science, just the environmental outcomes 
that we see on the ground in West Virginia, they are not being 
achieved, what we should expect. When people in Southern West 
Virginia counties have the same life expectancy of somebody in 
Iran or Syria or Vietnam, there is something----
    Mr. McKinley. I have run over my time, but I would sure 
like to see it because I think that who has in Vietnam--is age 
36, 37 in Vietnam? I think the life expectancy is very much 
greater than 36 and 37 in Southern West Virginia. And I am 
sorry that I have run over my time, Mr. Chairman.
    Mr. Shimkus. The gentleman's time has expired. I did 
consult with the minority, and without objection, I would ask 
for the article authored by Jonathan Borak be accepted into the 
record. Without objection, so ordered.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Texas, Mr. Green, for 5 minutes.
    Mr. Green. I would like to thank you, Chairman, and our 
Ranking Member Tonko for holding today's hearing and welcome 
our distinguished panelists for joining us.
    I want to turn to a law that this subcommittee passed in 
2012 with strong bipartisan support, the Hazardous Waste 
Electronic Manifest Establishment Act finally gave the EPA the 
authority and the resources it needed to develop an e-Manifest 
system for hazardous waste shipping. This law is a prime 
example of how technology can improve environmental protection 
outcomes while providing measurable burden reductions for the 
States in the regulated community. Although still in the works, 
the States and industry are expected to save $75 million under 
this new electronic system for waste shipment manifest.
    Ms. Marks, do you expect your department and the regulated 
entities in your States to benefit from the new e-Manifest 
system?
    Ms. Marks. Yes, sir. I think certainly that that is 
something that will benefit the States in our attempts to 
regulate. There are always instances where you need to know if 
there are things that are on the regs in your States that you 
need to be mindful of. It certainly helps to have that 
transparency for the public, too. It is just reassuring to the 
public to know that there is nothing that anybody is trying to 
cover up in that regard.
    Mr. Green. Mr. Cash, what about Massachusetts?
    Mr. Cash. Yes, we approach this in the same kind of way as 
Ms. Marks. We are all on board with this. We think it creates 
the kind of transparency and tracking of these kinds of 
materials. It is critically important.
    Mr. Green. Mr. Darwin, Arizona is kind of like Texas. We 
have a lot of cross border. Do you expect benefits in reduce 
burdens in Arizona?
    Mr. Darwin. Yes, sir, I do. I think any time you can 
transfer resources from shuffling paper to analyzing data, it 
benefits everyone.
    Mr. Green. OK. Do you think that the experience with e-
Manifest can serve as an example for other E-Enterprise 
projects?
    Mr. Darwin. Mr. Green, I think that the only thing that I 
would suggest be different between what EPA has done with the 
e-Manifesting system and what they are doing with the E-
Enterprise system is involving States in the design of the 
system. I think EPA has recognized--and I applaud them for 
recognizing--the role the States play in implementing 
environmental regulations throughout this country. And I am 
hopeful that in implementing their E-Enterprise system--and the 
proof is that they have been doing that so far--is that they 
will involve the States more heavily in the development of 
future systems.
    Mr. Green. Obviously I agree because I joke in Texas it 
must be in our DNA that we disagree with the EPA 
generationally. But again, the partnership makes it much more 
easier.
    Mr. Slesinger, you worked closely on e-Manifest for many 
years and continue to follow its implementations. What lessons 
should we in Congress and regulators at the State level learn 
from e-Manifest for other E-Enterprise initiatives?
    Mr. Slesinger. I think there are quite a few lessons I 
think that can be learned, but I think the most important one 
and I think E-Enterprise has taken that on and that is to work 
very closely with the States. When you try to uniform a system, 
like manifest reporting, you already may have a lot of 
different programs already under way in the different States. 
So getting the States to work with the Federal Government 
together and everyone agreeing to compromise because it is 
really hard for Connecticut to say, well, we need a uniform 
system that looks exactly like Connecticut, and Tennessee and 
Arkansas have a somewhat similar view about how there has to be 
uniform--so keeping the States involved early and consistently 
and everyone compromising a little is really key.
    Mr. Green. For each of your States, would it be better 
for--would you be better served if the US EPA had greater 
resources to work with that, with each State, to make sure it 
is coordinated?
    Mr. Darwin. The basic answer is yes. The more resources and 
assistance that we get from EPA at this point, the better. As 
was seen in my testimony, we have had cuts in the order of 30 
percent over the last 8 to 10 years, and it becomes 
increasingly difficult to do the kinds of compliance, 
permitting and enforcement that we need to, and assistance from 
EPA, particularly on these issues in which there is cross-State 
transfer of, in this case, hazardous waste, it is something 
that we would like to partner with EPA on.
    Mr. Green. Mr. Chairman, I am almost out of time. It seems 
that we have a lot of opportunities to build on the success of 
our e-Manifest and improve the process of regulated entities 
and get better outcomes, and I would like to thank you and the 
ranking member holding the hearing. I yield back.
    Mr. Shimkus. The gentleman yields back his time. I have got 
a question for the gentleman. Do you remember who were the 
sponsors of the e-Manifest legislation? Do you remember who 
moved that through the House? I think it was a Mr. Green and a 
Mr. Shimkus who were the original authors, but my memory 
doesn't serve me well. It didn't end up that way. It ended up a 
John Thune bill in the Senate after they mashed it up. But I 
thought you were being very humble in those questions.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. Good to have you all 
with us today. I first want to bring to the attention of Mr. 
Slesinger and Dr. Wasson, when I was in college in West 
Virginia, I spent a lot of time in Appalachian areas that were 
affected by a lot of poverty and a lot of coal problems out 
there. And I have spent my time also in doing everything from 
the Buffalo Creek gob pile disaster I believe before you were 
born, sir. But it was brutal, the things that happened down 
there.
    But one of my concerns we have sometimes with environmental 
groups is misleading data. I want to--you showed us a couple 
maps of lifespan and cancer, and I think you were trying to 
relate that to mountaintop mining. Let me show you a map here 
first of--I believe this is poverty rates in Appalachia.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. It is the same. Now let me show you the next 
map, unemployment.
    [The information follows:]

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Murphy. The problem is people don't have jobs, and when 
you have issues of people unemployment and don't have jobs, you 
have a number of health effects, increased asthma, increased 
cancer, depression, mental health problems, shorter life 
expectancy associated with that. It is when people aren't 
working. And much of that not working is we have a lot of 
closed mines, abandoned mines, closed coal-fired power plants. 
I really hope that the environmental groups can work with us in 
finding solutions and unleashing the vast brilliance of 
American technology to find solutions for this different from 
shutting it down. And I welcome any opportunity to discuss that 
with you folks there because the poverty in those parts of the 
country, particularly Eastern Kentucky where you have some of 
the--and parts of Western Virginia, we have a 40-percent 
unemployment rate. Forty percent and eight times the national 
rate of substance abuse. It is brutal.
    And parts of my district, however, are saved even though in 
Green County, something like 30 percent of their income is 
dependent upon coal. Thank goodness they have Marcellus shale 
because that is something they can have for some income there. 
To which case I then turn my attention to Ms. Marks and talk 
about Arkansas a little bit which my family is from. You may 
have heard of Murphy Oil?
    Ms. Marks. Yes, sir.
    Mr. Murphy. I am not from that side of the family.
    Ms. Marks. I am sorry.
    Mr. Murphy. We went into healthcare, but from the El Dorado 
Murphys and the Springdale Murphys out there and part of that 
Fayetteville shale is out there, but we went to healthcare.
    But I want to ask about the role of the Department of 
Environmental Quality. How does that--what is their role in the 
regulation of natural gas exploration in Arkansas?
    Ms. Marks. We actually share that role with the Oil and Gas 
Commission. We would like to say that we deal with the service 
facilities, and they deal with the drilling facilities.
    We have a memorandum of understanding with them that they 
deal with the actual drilling process itself, the construction 
of the wells, those kinds of things. They permit those. We deal 
with the ponds on site, the water issues, all of those types of 
things.
    Mr. Murphy. And how many State regulators do you have that 
monitor all these in the State?
    Ms. Marks. I can't speak for the Oil and Gas Commission. 
They have a number of inspectors that go out on site. We have 
in our water division, which is where we are involved most 
closely with Oil and Gas, we have 17 inspectors, and we also 
have four inspectors that are dedicated solely to natural gas 
issues. We were able to partner with the Oil and Gas Commission 
and get money from them through a memorandum of agreement that 
allows us to do joint inspections with them.
    Mr. Murphy. And how many regulators does EPA have in 
Arkansas to deal with the same thing?
    Ms. Marks. They don't have any regulators actually located 
in Arkansas. Dallas is the closest one.
    Mr. Murphy. Now, you have moved toward electronic reporting 
in Arkansas. So how has this affected the speed of time in 
moving forward in the thoroughness of reviewing permitting?
    Ms. Marks. It has been a great help, and it will be much 
more of a help when we actually get it fully implemented. But 
the fact that we don't have to deal with paper copies and 
uploading information into a database that then goes to EPA has 
saved a tremendous amount of time for both us and the regulated 
community.
    Mr. Murphy. Do you also maintain records of chemicals used 
for fracking in natural gas----
    Ms. Marks. The Oil and Gas Commission does. That is on 
their Web site, and it is open to the public.
    Ms. Marks. And it is required they have to file full 
disclosure in Arkansas?
    Mr. Murphy. They have to file disclosure. I am not sure of 
the actual specifics of that law, but they do have to disclose 
the materials in fracking fluids in Arkansas.
    Mr. Murphy. Also with regard to ponds there, do you 
maintain public records with regard to content in those ponds 
and any leaks in them or any environmental hazards associated 
with them so the public can also review those?
    Ms. Marks. Yes, sir. We have certain requirements. Our 
ponds are permitted on the basis of a permit by rule, and those 
ponds have to have a certain--they have to have below a certain 
level to be able to be put in those outside ponds and they have 
to be lined a certain way, constructed a certain way.
    Mr. Murphy. EPA has told us that there are not necessarily 
problems with those. Have you found problems with regard to any 
leaks or problems with groundwater contamination of any kind 
with those?
    Ms. Marks. Not so much with groundwater contamination. 
Surface water contamination we have. You know, you have 
sometimes ponds are going to fail, and sometimes you have 
people that don't follow the right construction process. And we 
will have contamination with adjacent waterways but nothing 
that has been, I would say, completely horrible. I mean, we 
have had leaks that we have had to address. We have had some 
minor fish kills, but that is about--that is rare, but it has 
happened.
    Mr. Murphy. OK.
    Mr. Shimkus. The gentleman's time has expired. Just to let 
people know, the committee rules are that the committee and the 
subcommittee get to ask questions first and then guests, like 
Mr. Yarmuth, will get a chance at the end once all the 
committee members have asked their questions. And so with that, 
I will turn to Congressman Johnson from Ohio. He is recognized 
for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I appreciate that. 
Director Darwin, in your review of processes that required 
improvement, what activities constituted the places most in 
need of reform or elimination in your view?
    Mr. Darwin. Thank you, Congressman Johnson. It is a great 
question, and the fact of the matter is that what we have found 
is that there is no process that couldn't use some sort of 
improvement. Studies have shown that whenever you review a 
process, about 80 percent of the process is wasteful from a 
document sitting on someone's desk from a document transferring 
from one desk to another, from errors that have occurred within 
the document.
    So as an agency, we have been reviewing every single one of 
our processes for whether or not it warrants improvement or 
not. We have done everything from the long lead-time permits 
that we issue, those permits that take the longest. I think the 
chairman mentioned that we have seen a 60 percent reduction in 
that timeframe. We have reduced the time it takes for a public 
records request by 80 percent, for us to respond public records 
request by 80 percent over the past 2 years as well. The time 
we see from us identifying a violation from it being corrected, 
that period of time is reduced by over 50 percent over the same 
period of time.
    So as an agency, we have been reviewing every single one of 
our processes, acknowledging that every process can be improved 
and prioritizing them based upon their impact to the 
environment.
    Mr. Johnson. OK. Well, you indicated in your written 
testimony that there is a, and I quote, ``a lot of wasted 
effort imbedded in the current process and that it invites 
error and delay in evaluating adherence to environmental 
requirements. Can you give us some examples, specific examples?
    Mr. Darwin. Absolutely. You know, most environmental 
protection programs rely heavily on self-monitoring reporting. 
We heard a lot about that today. This means that the entity 
must collect data and report the data to the responsible 
Government entity, and they largely do this via paper. This is 
despite the fact that the rest of the business world is 
reporting on the things that they do, even we do, 
electronically. Think of our online bank accounts that we have 
and how we have demanded as a public that we have access to the 
information that our banks have electronically.
    If we choose to follow a pure paper operation, it results 
in slow transactions and they are wrought with human error. 
Electronic reporting, on the other hand, is much quicker. It 
contains less error and allows for almost immediate feedback 
about whether or not there is a need for corrective action. 
When we receive electronic information from those who we 
regulate, we can give immediate feedback of whether or not they 
are complying with environmental requirements, and they can 
take corrective action to resolve those issues.
    Mr. Johnson. Do you see similar issues at the Federal 
level?
    Mr. Darwin. Absolutely, and I think that it is imperative 
that we understand that the Federal Government has acknowledged 
that as well through the e-Manifesting system they have 
developed, through the eDMR system under the Clean Water Act 
that they are also looking into, and then this E-Enterprise 
program that they have been partnering with the States is 
really their acknowledgment that they are dealing with the same 
issues the States are on needing to transfer their operations 
into the 21st century.
    Mr. Johnson. OK. Please explain for us how confidential 
business information will still be protected with information 
technology sharing like--and I hope I am pronouncing this 
right--MyDEQ? Is that how you say that?
    Mr. Darwin. Absolutely.
    Mr. Johnson. Are developed and used.
    Mr. Darwin. Yes, sir. This is a concern that we have heard 
from our business community in Arizona, and what I respond to 
them and I will respond to you in the same way is that there 
are certain laws within Arizona that protect confidential 
business information, and those laws remain unchanged 
regardless of how we receive the information. The fact of the 
matter is though that the information that we are receiving, 
even if it is not confidential business information, still may 
be subject to public records laws. And so as we are receiving 
this electronic information, our--disseminating that 
information and making that information publically available is 
something that we have to work with our regulated community to 
make sure that we are fulfilling their expectations and also 
our obligations in our public records laws.
    Mr. Johnson. OK. Final question for you. How does the fee-
for-service model and having a significant portion of Arizona's 
DEQ's budget from fees and other revenue from the regulative 
community improve compliance and environmental protection in 
Arizona?
    Mr. Darwin. Congressman Johnson, I am sure you are 
referring to the fact that my agency was taken off the general 
fund 3 years ago. That means that our budget is made up of 85 
percent fees from our regulated community and 15 percent from 
the Federal Government through grants from EPA. What this has 
caused us to do is to become much more responsive to our 
regulated community. It only makes sense. They are paying for 
85 percent of our budget. They deserve some additional 
attention from us. And the fact of the matter is when I was 
going before our legislature and asking for the ability to 
increase fees to fund my agency, I had to make commitments to 
the regulated community to get their support. And the 
commitment that I made to them was that I would issue permits 
to them quicker so they could do the business that they were 
asking to perform in Arizona quicker as well.
    So I fulfilled that commitment by becoming more responsive 
to them because of the fact that they are now 85 percent of my 
budget.
    Mr. Johnson. OK. Thank you, Mr. Chairman. I yield.
    Mr. Shimkus. The gentleman yields back his time. And the 
Chair now recognizes the gentleman from Florida, Mr. Bilirakis, 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. I 
have one question for Mr. Kovacs. Arizona removed the budget 
for the Department of Environmental Quality, and I know you 
referred to it just now, another witness did, from the general 
fund in favor of fee-for-service model. Does the Chamber 
support such a move like that for the States?
    Mr. Kovacs. Well, it is certainly an interesting concept, 
and I would like to see more data about it. But I think--I am 
sorry. No, I think it is on. And I would like to see more data, 
but----
    Mr. Shimkus. Just pull it a little bit closer and I think 
that will be--make the----
    Mr. Kovacs. You know, it is a fascinating concept. The 
States overall receive roughly about 60 percent of their budget 
I think, 45 to 60 percent, from fees anyway. And on the fee 
issue, in some States, I believe even like California for an 
example, for an environmental impact statement, the developer 
actually pays.
    I don't think anyone is asking--because they pay, that 
doesn't mean they get any special treatment. What it means is 
is that they have paid for a service. If you buy a book on 
Amazon, you expect the book. If you pay for a filing fee for a 
hazardous waste facility or solid waste facility, you expect 
that the State will review it. You still have to comply with 
all the same tests. You still have to comply with the 
engineering drawings, the zoning requirements, all of the--
anyone who wants to sue can still sue. All of that is still in 
place, and if the State makes a mistake or there is a 
violation, the State has enforcement authority or they deny the 
permit. But what the business community never asks for is 
special treatment. They ask for the service that they would be 
paying for, and I think that on States like Arizona, I think 
that you have got a, you know, a good laboratory.
    Mr. Bilirakis. Very good. Anyone else wish to comment on 
the fee-for-service model?
    Mr. Slesinger. I would, Congressman. We believe it is not 
the best way for the Government to operate is that the 
regulated control the budget of the regulator. The example 
though as just mentioned, that the State had to agree to be 
faster with approving permits as a prerequisite to get the 
needed fees to run I think is a bad precedent. Shouldn't the 
priority be possibly something else that is more protective of 
the general public and protecting the environment and public 
health as opposed to speeding up the processes for a permit.
    As I said in my testimony, the propriety of environmental 
agencies should be enforcing the environmental laws. Making the 
paperwork system work better is a very nice secondary. But when 
that secondary group is essentially controlling and having the 
impact to say what the budget and priorities are going to be is 
a very bad way to go.
    Mr. Shimkus. Would the gentleman yield, Mr. Bilirakis?
    Mr. Bilirakis. Yes, I will.
    Mr. Shimkus. I would just point out that the NRDC in the 
pesticide regulation obviously endorsed obviously the 
stakeholders paying into the system for identifying and then 
application and approval process.
    I would also say that we do that a lot in the drugs and 
devices world that we deal with all the time. The user-fee 
system has been very successful in trying to force the 
bureaucracy to move rapidly to--in a timely manner to get a 
decision. It could be a yes, it could be a no. But at least 
when you have a period of time where you don't know when a 
final decision will be made, that is problematic.
    Mr. Slesinger. That--
    Mr. Shimkus. Actually I want to ask my colleague from 
Florida if I can finish up and ask another question.
    Mr. Bilirakis. Absolutely.
    Mr. Shimkus. And I need to go to Mr. Cash just for this 
issue. Can you provide more details on why the E-Enterprise for 
Environment Initiative between the States and the EPA is 
important for Massachusetts?
    Mr. Cash. Yes. As I had mentioned before, implied before, 
there are many different programs that we have that overlap 
with EPA that we do in collaboration with EPA, and we don't 
want to be in a situation as we move to an electronic system, 
as we are in Massachusetts, as many other States are, in which 
we replicate the kind of different layers of regulation that we 
have on a paper system. We don't want to do a similar kind of 
system electronically. We don't want to be in a situation where 
our permittees are applying online in Massachusetts and then 
have to do a similar thing on a different system for EPA.
    And so it is really important that we coordinate these 
things across the different levels, and that is one of the 
reasons we have been so engaged in this.
    Mr. Shimkus. Thank you very much.
    Mr. Tonko. Mr. Chair? Can I ask Mr. Slesinger to respond to 
that? I believe he----
    Mr. Shimkus. It is the gentleman from Florida's time. Mr. 
Bilirakis, do you want to yield the remainder of your time to--
--
    Mr. Bilirakis. Yes. Yes, I will.
    Mr. Shimkus. Then yes.
    Mr. Bilirakis. One second.
    Mr. Slesinger. Thank you, Mr. Bilirakis. I think the 
difference with pesticides in the funding of that program and 
approval, was that was an additional delta. It did not come as 
it did in the other case that was mentioned out of the base 
budget. You are not going to get your base budget unless you 
took care of this priority first, whereas a pesticide add-on, 
which is a fee, is a delta on top of the normal EPA budget.
    Mr. Shimkus. And I would just say, that is a credible 
debate, but it is also a credible point to be made that the 
user fees have been successful throughout the Government 
operations as far as streamlining and getting accountability.
    I would like to now recognize a very patient gentleman from 
Kentucky, Mr. Yarmuth, for 5 minutes.
    Mr. Yarmuth. Thank you, Mr. Chairman. I appreciate the 
courtesy of the subcommittee. Thanks to all the witnesses. 
Thank you for your service.
    Dr. Wasson, I was pleased that in your testimony you said 
it is important that we eliminate duplication and streamline 
our regulatory processes. That makes total sense. But that the 
foundation of any effective and efficient regulatory process is 
scientific evidence and knowledge of how certain practices 
impact the health and well-being of our citizens.
    We hear a lot about the economic burden of regulation on 
coal operators, but we also know there is a personal cost paid 
by those families who live near coal mining sites. As you have 
mentioned, a number of peer-reviewed studies have shown that 
there are higher rates of cancer and mortality of those living 
near mountaintop removal sites. I think there are more than 20 
of those studies. So would you kind of elaborate in light of 
Mr. McKinley and Mr. Murphy's statements about other factors 
what you are talking about when you are talking about higher 
rates of cancer and mortality and the evidence of them?
    Mr. Wasson. Sure. I am very familiar with the study that 
Mr. McKinley entered into the record, and there is one study 
they used different statistical methods to come to their 
conclusions. I think what is so impressive about the literature 
that shows health issues near mountaintop removal mines just 
the sheer number of different independent sources of data that 
point in that direction.
    So, you know, maybe there is some debate over some 
statistical methods over some of those studies, but taken as a 
whole, if you look at the entire body of evidence, it is really 
pretty stunning. And again, it is independent. There are almost 
40 different researchers that have published on these--you 
know, among these 21 different studies. And so I think that 
that is really the biggest factor.
    And again, the tools that I talked about in my written 
testimony where we provide information about, you know, these 
maps that I showed, we also have the poverty information. That 
could have been in our maps as well. And the scientists control 
for those factors. And so when they do a study, they are 
looking at smoking rates and poverty rates and education rates 
and factoring those into their analysis.
    And so yes, many of the things that other members have said 
are true, but that does not in any way discredit the studies we 
are talking about.
    Mr. Yarmuth. Right. Now, you spend a lot of time in 
Appalachia and I have spent some time there. I am sure you have 
seen this before. That is water that came from the drinking 
well of the Urias family in Eastern Kentucky. That is U-r-i-a-s 
for the recorder. Those of you who think that is not dramatic, 
there is a contrast with normal water. And you know, I think 
they don't need a Web site in their neighborhood, in their 
community, to know that there is a health problem associated 
with that water. If that were the drinking water here in 
Congress, we not only wouldn't drink it, we would not stand for 
it. And yet, people in Appalachia, for those people, the 
Federal Government has yet to conduct a single study examining 
the health impact of coal mining on the communities that it 
inhabits. And that is exactly the point that I think all of us 
agree on, Mr. McKinley, Mr. Murphy. We need that kind of 
information, scientific information, to determine what the 
impact on the health of these citizens is, and the ACHE Act, 
which you mentioned and Mr. McKinley may want to co-sponsor, if 
you want to ask him, basically does that. It says we have to--
the Federal Government has to conduct a study on the health 
impact of mountaintop removal before it issues anymore permits.
    So can you tell me what the impact of such a law would be, 
if it passed, on the health of the citizens of Appalachia?
    Mr. Wasson. Well, the study itself, it is a great start, 
and it is long overdue. There is just no question about it. 
There is too much information showing health problems to 
continue to ignore. The other obvious impact is--a moratorium 
on issuing the mountaintop removal permits is an excellent 
idea, and I don't think that we need any more studies. The 
health studies aside, just the water quality impacts, the rich 
scientific literature about the water quality impacts of 
mountaintop removal, would justify such a moratorium right now, 
today. And so, you know, I think that that study as well as the 
moratorium would be an excellent start.
    Mr. Yarmuth. I thank you very much. Once again, Mr. 
Chairman, thank you very much for your courtesy.
    Mr. Shimkus. The gentleman yields back his time. And seeing 
no other members present wishing to ask questions, we really 
want to thank you. I think it was very--a little broader on 
some of the issues, but I think as the chairman of the 
subcommittee in trying to deal and reconcile and really talking 
to a lot of Environmental Council of the States which you all 
are kind of memberships and understanding the good work that 
they are doing, understanding Federal role and setting 
standards as the ranking member of the full committee keeps 
reminding me. How can we continue to work together?
    And the last point I will just make is that we have a 
budgetary crisis, and we are always going to have that. And our 
problem is mandatory spending, which keeps eating away at the 
discretionary budget, and the discretionary budget eats away at 
the EPA's budget. So until we do Medicare, Medicaid, Social 
Security, interest payments on our debt--and I would encourage 
people, if they want the Federal Government to do more, they 
need to help, engage, start talking about reforming the 
entitlement programs.
    So with that I would like to adjourn. Thank you again, and 
adjourn the hearing.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
